<html>
<title> - BUSINESS MEETING TO APPROVE NEW COMMITTEE ELECTRONIC COMMUNICATIONS POLICY</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



        MEETING TO APPROVE NEW ELECTRONIC COMMUNICATIONS POLICY

=======================================================================

                                MEETING

                               before the

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, SEPTEMBER 5, 2003

                               __________

      Printed for the use of the Committee on House Administration


89-894              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                   COMMITTEE ON HOUSE ADMINISTRATION

                        BOB NEY, Ohio, Chairman
VERNON J. EHLERS, Michigan           JOHN B. LARSON, Connecticut
JOHN L. MICA, Florida                  Ranking Minority Member
JOHN LINDER, Georgia                 JUANITA MILLENDER-McDONALD, 
JOHN T. DOOLITTLE, California            California
THOMAS M. REYNOLDS, New York         ROBERT A. BRADY, Pennsylvania

                           Professional Staff

                     Paul Vinovich, Staff Director
                George Shevlin, Minority Staff Director

 
  BUSINESS MEETING TO APPROVE NEW COMMITTEE ELECTRONIC COMMUNICATIONS 
                                 POLICY

                              ----------                              


                       FRIDAY, SEPTEMBER 5, 2003

                          House of Representatives,
                         Committee on House Administration,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 10:35 a.m., in Room 
1310, Longworth House Office Building, Hon. Robert W. Ney 
(chairman of the committee) presiding.
    Present: Representatives Ney, Ehlers, Mica, Linder, 
Doolittle, Larson, Millender-McDonald, and Brady.
    Staff Present: Paul Vinovich, Staff Director; Fred Hay, 
General Counsel; George Hadijski, Professional Staff Member; 
Jennifer Hing, Assistant Clerk; Jeff Janas, Professional Staff 
Member; George Shevlin, Minority Staff Director; Charles 
Howell, Minority Chief Counsel; Ellen McCarthy, Minority 
Professional Staff Member; and Matt Pinkus, Minority 
Professional Staff Member.
    The Chairman. The committee is now in order for the purpose 
of consideration of the committee resolution to modify the 
committee's policy on unsolicited mass communications contained 
in the Members' Congressional Handbook.
    At this time, the Chair lays before the committee a 
committee resolution modifying the policy on unsolicited mass 
communication with regard to e-mail. I would like to begin the 
discussion with some opening remarks on the matter; and then, 
of course, I will recognize our ranking member, Mr. Larson, and 
any other member who wishes to be recognized. I appreciate the 
attendance of all the members who are here today on both sides 
of the aisle.
    The committee is meeting today to consider a proposed 
change to its policy regarding electronic communications with 
constituents. To date, e-mails have been subject to the same 
regulations as regular mail. Today, the committee takes 
recognition of the obvious, that these forms of communications 
are in fact different and therefore should be regulated 
differently. With approval of this change, the committee will 
end the practice of applying 20th century regulations to a 21st 
century technology.
    The U.S. House since January, 1995, I would note, has come 
a long way on technology. Prior to that, the House was not open 
to the world technologically. As time has passed now we begin 
to reevaluate policies, how we work technology, how it affects 
us; and I think this policy, having taken a thorough look at 
it, will bring us up to where we need to be in the 21st 
century.
    To understand the rationale for the proposed change it is 
important to understand the history, I believe, behind our 
current policy. Public Law 97-69, which passed in the 97th 
Congress, contained a provision prohibiting unsolicited mass 
mailings which are defined by the franking guidelines as mass 
mailings containing 500 or more pieces of substantially 
identical contents. If you get a thousand letters in for guns 
or against guns, whatever the issue is, those would be 
recognized as solicited mailings, but the 500 or more pieces of 
substantially identical content are mailings that are sent out, 
and it is unsolicited.
    This cutoff took effect during the 60-day period before a 
primary or general election in which a Member's name appeared 
on an official ballot. This ban was put in place to limit a 
Member's advantage as an incumbent by restricting their ability 
to use taxpayer-financed mailings for political purposes or 
unsolicited mailings.
    In 1995, the 60-day ban was lengthened to 90 days before a 
primary or general election; and on August the 7th of 1996 the 
committee applied the 90-day ban before an election 
consistently to all forms of mass communications to avoidhaving 
Members circumvent the van through all the other various forms of 
communication that were at a Member's disposal.
    The Republican majority was true to its promise of limiting 
and restrictions a Member's incumbent advantage by consistently 
placing restrictions on a Member's ability to use taxpayers' 
dollars for strictly political purposes. These sound policies 
were achieved in large part with the cooperation and support of 
our colleagues on the other side of the aisle, and today we are 
once again seeking Members on both sides to support another 
policy we believe is necessary to adapt to the changing times 
and methods in which Members are communicating. The policy 
proposal before the committee today seeks to create a separate 
category for electronic communications, or, as we know, e-mail, 
with respect to the unsolicited mass communications policy.
    While the committee should maintain limits on spending 
which gives Members an incumbent advantage, the committee 
should also balance this policy with Members' responsibilities 
to represent and communicate with their constituencies. There 
is no doubt that web pages and e-mails have greatly enhanced 
the ability of people in this country and around the world to 
communicate their points of view, but it also raises a lot of 
other issues that we have to adapt to, and that is again why we 
are here today.
    Our policies on the use of official resources should never 
stifle communication between Members and their constituents as 
it relates to official business. This proposed e-mail policy 
creates a category of subscriber lists that would enable a 
constituent to subscribe one time to a Member's periodic e-mail 
newsletter by clicking the icon on their Web site and allow the 
Member to keep sending legislative updates and information 
during the 90-day blackout period because these people have 
clicked the icon and have said ``continue to post me on this.'' 
And I would note the Web sites also contain an icon that you 
can click to say ``I don't want to receive these.''.
    This policy would treat e-mail communications to 
individuals who have subscribed to a Member's Web site as what 
they are, that is, a solicited form of communication because 
they have requested this. As such, they would not be subject to 
the 90-day ban as it applies only to unsolicited communication. 
This change is necessary because, under the current rules, once 
a Member reaches the 90-day blackout period, the Member must 
either cease sending out electronic legislative updates to 
people who have requested them or cease sending newsletters to 
constituents who have also requested them or the constituent 
would have to resubscribe each and every time they wanted to 
receive a periodic newspaper by going back on the Web site and 
each and every time reclick the icon.
    In the business world, when individuals subscribe to a 
periodic newsletter, or in fact when we subscribe to our 
periodicals, we would expect to continue to receive that 
newsletter until we unsubscribe or decline to receive it. The 
proposed policy contains just such a requirement, that the 
Member must include an option that enables the constituent to 
unsubscribe from the e-mail list if they choose to do that.
    This change in definition also means that Members would not 
be required to go through all the steps necessary to obtain a 
franking advisory every time they want to sent out an 
electronic newsletter to 500 or more individuals because the 
individuals have subscribed to it. This is consistent with 
existing policy which does not require advisories from House 
Administration from franking for solicited communications. The 
content of any electronic newsletter must still meet franking 
content regulations and cannot contain overt political 
language,.
    This added responsibility is no different than the 
responsibility currently placed on Members of the House when 
they receive mass quantity postcards, issue-related petitions, 
or mass quantity telegrams. They have to, obviously, uphold to 
the principles of the House. In these circumstances where 500 
or more constituents have requested aposition paper from the 
Member, the Member is entitled to respond to all those individuals 
without obtaining a franking advisory from us even during the 
communications blackout period. So--as long as the content meets 
franking requirements. Further, there will be nothing in the proposed 
rule that would prohibit a Member from taking a cautious approach and 
going to the franking commission anyway should they want to seek 
guidance on a communication piece if they want to ensure complete 
compliance.
    The rational for allowing Members this flexibility in 
communications is very simple. Unlike regular mail where each 
additional piece sent has an added cost, e-mails can be sent to 
499 or 501 or 10,000 citizens at no additional cost. There are 
clearly infrastructure costs of paying for computers, paying 
for staff, et cetera, but those costs would occur regardless of 
whether this policy was enacted or it wasn't. This proposed 
change in policy does not represent any additional cost to the 
taxpayer whatsoever and will allow Members to keep constituents 
who want to be informed, informed. This is precisely why 
electronic communications should be distinguished from other 
more traditional forms of communication which do incur 
additional costs.
    Fundamentally, the question is whether Member communication 
with constituents is something that should be promoted and 
encouraged, or regulated and discouraged. Modern technology has 
made it possible to enhance these communications for minimal 
costs, and this policy will promote those communications.
    With that, I would like to conclude by urging all Members 
to support this commonsense change; and I will recognize our 
ranking Member, Mr. Larson, for comments.
    Mr. Larson. Thank you very much, Mr. Chairman.
    Mr. Chairman, the Members of the minority party vigorously 
oppose this proposal in principle and for four very specific 
reasons.
    First, we see this as a circumvention of the time-honored 
90-day blackout period. I think, especially in this day and 
age, and while I agree with the chairman about the marvels of 
technology, it is a double-edged sword. On one hand, there are 
those that have access to information from a technological 
standpoint and those that do not. We feel that this opens up an 
opportunity, intentionally or not, for greater abuse. We feel 
that, with no bipartisan review, no public disclosure, the 
ability to abuse a process by sending e-mails outside of one's 
district, in a 90-day period that has been time honored when 
these matters could be achieved equally through a campaign Web 
site or campaign sign-up.
    I would ask--I have written comments for the record, and I 
want to seek unanimous consent to revise and extend my remarks.
    The Chairman. Without objection.
    Mr. Larson. Thank you, Mr. Chairman.
    I hope that we can have a dialogue. We have prepared 
amendments to address every one of our concerns that I raise; 
and we feel strongly about these because I think, as every 
Member here of this committee, we care a great deal about the 
institutional process. I respect the intentions and understand 
the intent and the goals of this legislation, but sometimes we 
find, especially on this committee, we have to save Members 
from themselves. Sometimes we have to have rules and 
regulations that are followed where we have review bipartisanly 
to prevent abuse in a process.
    All of us are incumbents. Anyone who runs for this office 
understands the enormous advantage that incumbents have 
already. This just adds to that advantage and flies in the face 
of what is a reasonable 90-day cutoff with respect to 
information and information that can be gained or received 
through a political process, through candidate committees as 
well, with no bipartisan review, with no opportunity for public 
disclosure where one can see what is actually going out in that 
e-mail.
    With the opportunity for abuse, a person in the House of 
Representatives running for the United States Senate mailing 
outside of their districts, clearly against the rules of the 
House, who is to regulate that? Who oversees that? Asimportant, 
if someone complains and feels that they have been wronged, where are 
the remedies? What are the solutions?
    So, in principle, because of the circumvention of the 90-
day cutoff, lack of bipartisan review, no public disclosure, an 
enormous temptation for abuse, we have to oppose this 
legislation. While I certainly would agree that the marvels of 
technology provide us with a wonderful opportunity to stay in 
touch with our constituents, why is it that those who don't 
have that technology at their disposal then become part of a 
digital divide by simple reason that they don't have a 
computer, that they wait for a phone call or a fax or a letter. 
And, of course, that letter, phone call or fax would be 
forbidden under our rules because it requires taxpayer dollars, 
because it requires the use of our staff, et cetera.
    So, Mr. Chairman, it is on that basis that we must oppose 
these. We do have perfecting amendments, if the majority is so 
inclined, to receive them.
    With that, I will reserve the balance of my time.
    [The statement of Mr. Larson follows:]

  OPENING STATEMENT OF HON. JOHN B. LARSON, RANKING MINORITY 
           MEMBER, COMMITTEE ON HOUSE ADMINISTRATION

    Mr. Chairman, I am pleased that the House Administration 
Committee is resuming consideration of issues relating to the 
continuity of Congress. Since our hearing last year, nothing 
has happened to diminish the significance of the questions we 
will address here today, and the opportunity continues for 
Congress to ensure that our political institutions survive a 
catastrophic event which might disrupt both the personnel and 
the physical infrastructure required to govern our nation.
    I join with the chairman in hoping that this effort will be 
ongoing on our committee and on the other committees in both 
chambers which have pieces of jurisdiction over this complex 
subject, and that we can enhance and refine the public debate 
with the contribution of the diverse group of witnesses in the 
panels who will testify today.
    The argument has been made by some that, in dire 
circumstances, a crisis in the operation of Congress might not 
occur. It might not be necessary to conduct recorded votes, 
which would demonstrate the absence of a quorum. Major 
legislation could be passed by voice vote. The Members who 
remain would ``do the right thing.'' But I don't find this kind 
of wishful thinking credible. The job of Members is to disagree 
and to resolve their differences over major areas of public 
policy, ultimately through voting. The Constitution provides a 
process and a structure of powers, and the checks and balances 
needed to exercise them. We are a government of laws, not of 
men. And we need laws--including perhaps also constitutional 
amendments--to resolve questions of congressional continuity.
    I want to commend Chairman Sensenbrenner and Dreier for 
their initiative in introducing this important legislation 
before us today, following up on House action last year in 
passing H. Res. 558, referred to our committee, which urged 
states to expedite special elections for the House. I also want 
to congratulate Congressman Frost, ranking member of the Rules 
Committee, for his leadership of the bipartisan working group 
last year which secured passage of rules changes to clarify the 
declaration of vacancies in the House and to provide flexible 
new authority to alter the times and places of meetings in 
exigent circumstances, and also Congressman Baird, who is 
continuing to explore differentapproaches to reconstituting the 
House through a constitutional amendment.
    We must fully understand the inter-relationships and 
ramifications of all potential statutory or constitutional 
remedies. These proposals are not mutually exclusive and may 
indeed be complementary. And certainly the subject matter 
before us, relating to the structure and preservation of the 
Constitution and the Republic itself, presents the type of 
issue suitable for consideration through a constitutional 
amendment.
    We may need to buttress our 18th Century founding document 
to adapt to threats which the abuse of 21st Century technology 
undreamed of in earlier eras now poses to it. Congress grappled 
briefly with these issues early in the nuclear era, with the 
Senate's passage, on three different occasions, of 
constitutional amendments providing for gubernatorial 
appointment of House Members. Congress also agreed to set-up a 
refuge in West Virginia at the Greenbrier Resort, on the 
assumption that there would be time to travel to and take 
shelter there once Soviet missiles were detected. It is amazing 
how rapidly advances in weapons of mass destruction have 
trumped what now appear as naive assumptions even of that 
comparatively recent era.
    The principal subject of our hearing today is how to 
replenish the membership of the House as quickly as possible in 
the event of a catastrophe. The House in 1906 determined that 
the proper constitutional definition of a quorum consisted of a 
majority of those Members chosen, sworn and living; the same 
interpretation holds in the Senate. Under such conditions, the 
House might technically still legislate, no matter how small 
its membership might be. However, such a body would not 
necessarily be representative either geographically or 
politically of the larger House which existed prior to the 
cataclysmic event, and could not long retain the sense of 
legitimacy our governmental system must maintain to command the 
respect of the American people.
    To further compound the potential problem with a quorum, 
the Constitution contains no mechanism for determining 
questions of potential disability. Disabled Members still count 
as part of the quorum even if they can not appear in the House 
chamber, which is the ultimate test of a Member's presence.
    I think we can all agree that the ideal solution would be 
for the states to step up to the plate and provide more 
expeditious procedures in replenishing their membership in the 
House. After all, it is a matter of tremendous self interest 
for them to do so. However, states may not be able to 
accomplish the rapid reconstitution of the House under their 
current legal frameworks, and it has been argued that a Federal 
statute providing more uniform provisions could expedite 
reconvening of the House after a catastrophe.
    This is what the Sensenbrenner bill attempts to do. The 
bill can serve as a valuable starting point for this debate. I 
want to commend the Judiciary Committee chairman for this 
initiative and urge him to also consider hearings on a variety 
of constitutional amendments which have been broached, subject 
matter that falls within the domain of that panel.
    However, H.R. 2844 presents potential constitutional and 
practical difficulties and could require a substantial unfunded 
mandate on the states. It would very likely prevent compliance 
with the Uniformed and Overseas Civilians Absentee Voting Act. 
And there are important questions posed by the bill's effects 
on existing state laws dealing with the selection of 
candidates, the printing, preparation and distribution of 
ballots, selection and staffing of polling places, counting 
votes and certifying election results. There would also be only 
seven days, in most instances, to involve the public and 
conduct a campaign promising a real choice among candidates.
    Our colleague from Texas, Sen. John Cornyn, who has 
submitted a statement for the record today, held an important 
hearing in the Judiciary Committee on continuity issues two 
weeks ago and distributed results of a questionnaire he sent to 
state and local officials who expressed virtually unanimous 
reservations about H.R. 2844. I ask unanimous consent that that 
document also be placed in the hearing record at this time.
    In its specific examination of any proposed statute 
expediting special elections, this committee should determine 
how much time is sufficient to bring a popularly-elected House 
back up to a size which can simultaneously produce both a 
quorum to legislate as well as a body still representative of 
the American people. If we can find a way to do that which 
brings the House back into action when it is needed to act, the 
argument for a constitutional amendment will be reduced.
    Perhaps we should enact a model special election statute 
which addresses some of the problems I noted, but leave it up 
to the states themselves to determine if they prefer it to 
their existing laws in a time of emergency. There is no 
pressing need for all such vacancies in the House--even several 
occurring within the same state--to be filled on the same day.
    Proponents of a constitutional amendment argue that any 
workable and constitutional statute expediting special 
elections, if one could be crafted to work under circumstances 
which saw a majority of House members killed, would probably 
still leave the House unable to function for a period of five 
or six weeks at least. They argue that a new statute would be 
useful primarily as a supplement to a constitutional amendment 
allowing some form of temporary appointments to the House.
    Mr. Chairman, I am open to supporting both a legislative 
approach and a constitutional amendment.
    In their testimony, Chairmen Sensenbrenner and Dreier cited 
the Federalist Papers and remarks at the Constitutional 
Convention of our nation's great Founders, James Madison and 
Alexander Hamilton, on the unique nature of a House of 
Representatives comprised exclusively of Members elected by the 
people. Our colleague Sen. Leahy, former chairman and ranking 
member of the Judiciary Committee, said that ``While the 
possibility that the House could be weakened by terrorist 
attack is frightening indeed, so too is transforming the 
essential nature of the People's House. Amending the 
Constitution should be a plan of last resort.'' But the 
Founders also created a Constitution which could be adapted to 
new challenges and used to restructure and preserve itself, and 
it gave to Congress the ability to propose changes when needed.
    The House has always been elected by the people, but how 
relevant is our justifiable pride in that distinction if there 
is in fact no functioning House of Representatives due to a 
catastrophe and the lack of a quorum? A House somewhat 
different in form from the one we know could function 
temporarily, as long as the new structure derived from the 
Constitution. The Constitution provides legitimacy. All seats 
would be refilled in the near future through election, and the 
status quo ante quickly restored. We currently have a president 
who is recognized as legitimate because he ultimately derives 
his existence from a constitutional process, even though 
another candidate received more votes from the people.
    I am considering introducing a constitutional amendment 
which would require that, in event of a catastrophe and a 
sufficient number of vacancies in the House which we would 
define, the state legislatures would meet to appoint 
representatives to serve temporarily as full voting Members of 
the House of Representatives. There is ample precedent deriving 
from practices of legislatures in choosing members of the 
original Continental Congress, as well as their role in 
selecting United States Senators prior to the advent of popular 
election of senators in 1913.
    The legislatures, which sometimes meet only in alternate 
years in some states, would be called into special session if 
necessary to achieve this objective. They could choose interim 
representatives who reside in the congressional district and 
are of the same political party as a deceased Member, and who 
could not run for election to the House while serving there 
temporarily. I realize there is great controversy about 
introducing the concept of party into the Constitution, but I 
believe it is important to try to retain as much continuity 
with the political preferences previously expressed by the 
people through their votes in the most recent election as 
possible.
    I also think that, in the event of a crisis, we want the 
House focused on dealing with the emergency and passing urgent 
legislation, not gearing up for special election campaigns. I 
note that Mr. Lewis in his testimony raised the idea of state 
legislators themselves, with their experience in a 
parliamentary body, serving temporarily in the House, and I 
think that may have merit as long as they do it to serve the 
country, rather than to promote themselves to higher office.
    To avoid potential deadlock in the process, should the 
legislature fail to make a choice within 3 days after 
convening, the governor of the state would be authorized to 
make the appointments subject to the same conditions I just 
mentioned. And while this process was underway, the states 
would be organizing special elections to fill the House seats 
in the normal manner for the remainder of the term.
    I hope the witnesses will feel free to comment on this 
proposal, and I congratulate the chairman for his leadership on 
this issue.
    The Chairman. I would ask for clarification. Are you asking 
us to receive them, or asking us to pass them? Two different 
things.
    Mr. Larson. Receive and pass is our objective.
    The Chairman. We can do the receive parts.
    [The Larson Amendments follow.]

                              Amendment 1

    Add the following new section at the end of the resolution:
    ``Notwithstanding any other provision of this resolution or 
any law, rule or regulation, no member may send a subscribed e-
mail update within 90 days preceding a special, primary, 
general or run-off election in which the Member is a 
candidate.''

                              Amendment 2

    Add the following new section at the end of the resolution:
    ``Notwithstanding any other provision of this resolution or 
any law, rule or regulation, no member may send a subscribed e-
mail update outside the congressional district from which the 
Member is elected. Each Member must take all reasonable steps 
to ensure that individuals on the Member's subscribed e-mail 
update list(s) are residents of the Member's congressional 
district.''

                              Amendment 3

    Add the following new section at the end of the resolution:
    ``Notwithstanding any other provision of this resolution or 
any law, rule or regulation, no member may send a subscribed e-
mail update unless it has been reviewed and approved by the 
Commission on Congressional Mailing Standards.''

                              Amendment 4

    Add the following new section at the end of the resolution:
    ``Notwithstanding any other provision of this resolution or 
any law, rule or regulation, no member may send a subscribed e-
mail update more frequently that once every 30 days during the 
90 days preceding a special, primary, general or run-off 
election in which the Member is a candidate. No member may send 
any subscribed e-mail update within 30 days of a special, 
primary, general or run-off election in which the Member is a 
candidate.''

                              Amendment 5

    Add the following new section at the end of the resolution:
    ``Notwithstanding any other provision of this resolution or 
any law, rule or regulation, no member may send a subscribed e-
mail update unless it is simultaneously transmitted as 
prescribed by the Committee on House Administration for 
immediate public disclosure.''

    I just want to--and I am going to defer to Mr. Ehlers, but 
I did want to say that, on the disclosure issue right now, 
since these would be solicited by people, it is the same during 
a blackout where you have had a solicited mailing, 60 days 
reelection of a thousand pieces by mail, and you do respond to 
those because you are allowed to because they were solicited. 
Now we can't review those either today, currently in the House. 
So this would be no different than that.
    I want to say something about those types of situations. 
Whether it was a solicited e-mail or a solicited newsletter or 
an answer to a postcard, when people send these out and if they 
do send them out and they weren't solicited, if enough of these 
went out--and this normally happens--people pick those up, 
whether it is kind of somebody in the political know, a 
Democrat committee man or a Republican committee man or woman, 
they pick them up and usually we do hear about them. They can 
still say, look, here is what I have got; it is political in 
its nature; it should not have been sent. And it does come to 
the franking commission.
    So even currently today, if they are solicited, we still 
don't review every Member's letters above 500 if in fact they 
are solicited. So I see this no different than on that aspect.
    I would also note I understand and appreciate, although I 
don't agree with the position that you have, and these things 
happen. But I compare this like to a marriage: We are having a 
spat, but there is no divorce.
    So, with that, I will refer to Mr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman.
    Let me just give a bit of history on this.
    Nine years ago, in 1994, when the Republicans were going to 
receive the majority, after the election, Mr. Gingrich asked do 
to do everything in my power to get all the House documents on 
the Internet by the time he was sworn in as Speaker. He also 
asked me in the course of that to computerize the House.
    It is hard for those who arrived after that to realize what 
a total mess we had. Because of the history of operation in the 
House, where every office is essentially its own little fiefdom 
and every Member has its own budget, the computer systems had 
developed by each Member saying, well, I need a computer in my 
office and let us go out and get them and then, because he 
needed expertise, hiring a systems analyst to operate and 
choose the computers for that office.
    I was appalled when I arrived here to discover it was 
easier for me to send an e-mail to Moscow than to send it 20 
feet down the hall to a colleague, because we had 435 
individual little businesses in the House with their own 
computer system. There were interconnections, but they were 
very complex because everyone had chosen their own equipment, 
their own software, their own systems approach, and we were 
spending huge amounts of money just interpreting e-mail that 
someone--there were six different e-mail programs operating in 
the House. We had to send everything to a central computer 
which would say, well, this was sent in CC mail, but I have to 
send it out in some other conversion, and they had to convert. 
We were spending close to $500,000 a year just translating from 
one language to another.
    As I say, it was a total mess. I spent a lot of time 
computerizing the House, getting the documents on the Internet.
    When we developed this, I proposed--what we essentially 
have before us now I proposed at that time. The committee was a 
little concerned because it was this brand-new technology, and 
they said, well, let us just put it under franking for now. And 
I pointed out that that was totally inappropriate because 
franking was designed for snail mail and did not fit e-mail. 
But the precaution prevailed. The attitude was, well, let us 
see how the new system works and we can reevaluate. So right 
now we are reevaluating it. It took far too long to do that.
    But I raised this at the last meeting because I had gotten 
a lot of objections from citizens who appreciated getting 
information through the weekly e-mail report that I send out, 
and they couldn't figure out why it stopped just when the 
action got the greatest shortly before the elections, and I had 
to explain to them that we have House rules preventing us from 
sending it out. They thought that was the most absurd thing 
they had heard, that they can't be informed during the 90 days 
before the election what is happening in the House of 
Representatives. I agreed with them, and that is why I raised 
it at the last meeting, and I thought we had consensus within 
this committee to proceed with this change.
    I appreciate some of the concerns that have been expressed; 
and if any abuses do appear in the future, certainly we would 
be happy to address them. But I think those are not 
particularly valid concerns. I don't think it is going to 
happen. Because if any Member should abuse the service and use 
it improperly during a campaign, that becomes a campaign issue. 
And it is not that those who are seeking to hold this office 
who are not incumbents have the short end of the stick. For 
example, they can run ads using quotes we have made on the 
floor on C-SPAN and we are not allowed to because we are bound 
by House rules, but the candidates are not because they are not 
yet Members of the House. So they have avenues available to 
them that we don't because of our restrictions.
    The whole purpose of the e-mail newsletters is to educate 
the public about what we are doing here. These are not to curry 
favor. We are not to include self-flattery or flattery about 
our party or anything of that. It is simply straight stock news 
about what is going on at the Congress. And, in my case, the 
public really appreciates getting this; and I don't see why we 
have to arbitrarily stop informing them what the government is 
doing 90 days before an election, as I said, when generally 
there is a lot of action taking place.
    So I believe this is as very good proposal, and I urge the 
attitude that we had 9 years ago when people were afraid of 
doing it and said, well, let us not do it and let us see what 
happens and maybe we can change--I would say, and have that 
attitude now, let us do this; and if there are problems, we 
will correct them as----
    Mr. Larson. Will the gentleman yield?
    Mr. Ehlers. I will be happy to yield.
    Mr. Larson. Well, let me just first point out that, with 
regard to franking, that franking doesn't deal technologically 
with sealed mail, it deals legally with abuse. It was derived 
out of a court case to prevent abuse, and then Congress has 
seen fit to establish rules to prevent abuse. I readily agree 
with the advance of technology and the need to keep people 
informed, and that is why we still think that it is possible, 
given the technology, that with review, with at least public 
disclosure, there is an opportunity therefore to embrace the 
technology, even though in principle I think there should be a 
90-day blackout because I believe every incumbent Member of 
Congress does have the same ability politically through 
campaigns to respond to any opponent during these time periods.
    I have the deepest respect for our chairman and leader here 
and appreciate the comment with regard to marriage. However, 
this is a principal disagreement that the minority has. And as 
John Kennedy used to say about Peter Finley Dunn, it is a case 
of trust everyone but cut the cards. And especially when we are 
trying to ensure to the public that there is integrity in the 
voting process, there is no question in my mind that Vern 
Ehlers is going to follow the letter of the law and has more 
integrity than any Member of Congress that I have had to deal 
with. But, as I said earlier, we devise these rules oftentimes 
to help save Members from themselves or overzealous staff 
members or others who unintentionally abuse the process and yet 
garner greater favor on the part of an incumbent than we 
already have.
    Mr. Ehlers. Reclaiming my time. Just a quick response.
    I have always objected to writing rules or laws because of 
something the bad guys might do when in the same process you 
are hurting the good folks. I am closely supportive of 
preventing bad folks from doing things or punishing them if 
they do, but you can't write it in a way that you are punishing 
the good folks who are trying to inform the public properly, 
and you can't punish the public which wants to know what we are 
doing.
    The last point I want to make is, for the solicited 
responses that we send out during that 90-day period, someone 
writes us, someone sends us a stock postcard. You know, we get 
these 5,000 postcards that have been printed by some interest 
group, and they mail them to our constituents saying, mail this 
to your Congressman. They scarcely even know the issue, but 
they drop it in the mail. We respond, and no one sees it. 
Franking doesn't see it.
    I would maintain that these e-mail lists, because we do not 
solicit names, these are names of people who have asked to be 
put on the list, and I put that in the category of solicited 
responses. It should not be under franking. If someone asks to 
be on our e-mail list, we could ask them to send in an e-mail 
every week to ask for that week's copy if you want, but they 
have done it once. Why should they do it every week? They have 
solicited these newsletters, and these solicited newsletters 
should not be subject to franking any more than----
    Mr. Larson. Would the gentleman entertain a question about 
solicitation?
    The Chairman. No. The time of the gentleman has expired.
    Mr. Ehlers. I am not an expert on solicitation. I hear that 
is against the law.
    The Chairman. And we will move on. But I just want to make 
a point before we move on to see if there are further 
discussions. I want to read the rules for solicited 
communications:
    They are not subject to a blackout 90 days before. There is 
no limit on the number of pieces that can be mailed. No 
franking advisory is required, and they are not restricted to 
in-district.
    So, just to clarify, if you have a solicited piece of mail 
3 weeks before the election, a thousand pieces that come in a 
postcard, you can again return the answer because it is not 
subject to blackout, no limit on the number of pieces, no 
franking advisory is required. So we don't know what they are 
sending out. Now, if they abuse it and we get a hold of one and 
someone files, we take appropriate action.
    This e-mail would be no different because the e-mail was 
solicited. It would be no different than the thousand postcards 
that came in because it was solicited because somebody went to 
the Web site, clicked on the icon and said send it to me. So, 
just from my point of view, I see that as no different than the 
other.
    Ms. Millender-McDonald. Thank you, Mr. Chairman; and I 
agree with you and the ranking member that I can appreciate the 
21st century technology. It is the wave of the future.
    But not all Americans are on that wave. Certainly, those 
who are in my district that represent Watts and Compton and 
North Long Beach are among the most impoverished people in this 
country. They do not have computer access. So when you talk 
about this proposal that you have presented, it really cuts 
across class lines. Because you are talking about a group of 
people who already are disadvantaged, and they will not feel as 
if they are part of this process, this fast-moving wave of the 
future, because they are not a party to that because they have 
no computers.
    I do view this proposal as one that has no accountability 
because there is no bipartisan review. It is unregulated. 
Therefore, communication can be sent outside of one's district 
to other Members and other Members' districts, which I feel is 
really improper. And the e-mails, as I have read it, really can 
be sent regardless of the subject matter or the content. It 
seems as if then those e-mails can have some flavor of campaign 
material and substance while you are saying that you have got 
to monitor abuse. How do you monitor abuse whenyou have no 
accountability, it is unregulated, there is no oversight? I cannot see 
the rationality to that.
    And, Mr. Ehlers, certainly I respect you immensely. But 
when you speak of this being something that happened back in 
1994 when the Republicans took over, was this something that 
was expressed in this committee whereby one would begin to look 
at the possibility at raising the bar on e-mails in one's 
respective constituency or district? It just seems to me like 
this is a late-minute attempt to try to put one party in an 
advantaged state over the other one, and especially those of us 
who--in the Congressional Black Caucus who for the most part 
represent very poor districts where there aren't any computers, 
folks do not receive e-mails, and so therefore we are really at 
a very bad disadvantage.
    This is why a lot of people are not going to the polls, 
because they see where persons who have e-mails and persons who 
have computers can receive immediate information prior to an 
election when they cannot do that and therefore they do not 
have that advantage of having information prior to voting. So 
it really does cut across class lines, it--I am really 
concerned about this. While I do appreciate and enjoy the 21st 
century technology, a lot of us or a lot of our constituents 
aren't there yet.
    Mr. Ehlers. Will the gentlelady yield?
    Ms. Millender-McDonald. Yes.
    Mr. Ehlers. First of all, back to the history of this. In 
1994--actually, it was 1995 by the time the system was being 
installed and 1996 before it was really operating. It was a 2-
year program, and e-mail was relatively new. There were not 
that many recipients out there, and it was just a new thing, 
and the committee was cautious when I recommended that we 
recognize that this is something new. This is not like putting 
stamps on envelopes or writing our name on and franking them 
and sending them out. This is something totally new. They just 
felt uncomfortable and said, well, let us just see what 
develops here.
    This proposal is not brand new now, either. We talked about 
it before the last election, and the feeling then was we should 
not do it because we had already had one particular situation. 
We had had an election already that had taken place, and we 
felt we shouldn't change horses in midstream so we should do it 
this time. And you can use that argument and stretch it out 
forever.
    On the class argument, I don't quite follow that, because 
if the people of your district or some other districts don't 
have computers and don't have access to e-mail, I don't see how 
that benefits one party or the other because----
    Ms. Millender-McDonald. Let me reclaim my time just to 
answer your question.
    Certainly when you have districts where you have more 
affluent people who have access to computers, then you have a 
rash of e-mail subscribers or persons who engage in e-mails. So 
that is the advantage. I mean, the class is there. You have 
districts where there are a great number of affluent folks, as 
opposed to the ones who do not have that at all.
    Mr. Ehlers. Okay. If I may just respond to that a moment. I 
would simply say that my daughter is a librarian. They have 
total free access to anyone who wants to walk in the door and 
use the computers there and get the information that they want. 
And they actively are working with the minority communities, 
with great success with some communities and less success with 
others.
    So I think that, first of all, I don't see that that has 
any effect on elections or is likely to affect elections. Just 
look at the distribution of votes. You look at the swing 
districts in this Congress. I don't think you will find that an 
argument that is----
    Ms. Millender-McDonald. Well, reclaiming my time, libraries 
do not have a large number of computers. When I sent out a mass 
mailer to ask people to support our troops, they had just a ton 
of folks trying to get to the computers in the library. They 
don't have enough computers there. So when you talk about 
having folks to go to the library to try to surf the Internet 
or whatever, that is just a true thing.
    But continuing on, Mr. Chairman, you know, if there isany 
amendments to be done, then perhaps we should put newsletters in this 
whole scheme of things so that I can send newsletters within this 90-
day block as my constituents should want to or desire some last-minute 
information because they don't have e-mails.
    Again, I see no accountability here at all when this is 
unregulated. There is no oversight. I can't see how you can 
monitor abuse when you have neither one of these. And, Mr. 
Chairman, did you say in your opening statement--while I was 
listening, but then I was trying to write, too--over 500 
mailers distributed within the 90-day period does not have to 
obtain clearance from franking? Did I hear that correct?
    The Chairman. Let us say somebody sends 700 postcards on an 
issue to an office. Those are solicited, and the office can 
respond to that.
    Ms. Millender-McDonald. The office can respond?
    The Chairman. Because they are solicited. And then they 
don't send us the letter and say, how should I answer? Here is 
my content.
    Ms. Millender-McDonald. So they can, without getting the 
approval of franking?
    The Chairman. Currently.
    Ms. Millender-McDonald. And with the rash of e-mails that I 
am certain will take place given this 90-day lifting, would you 
expend your House resources for that, or does it have to be 
campaigning, given that you are within this 90-day period?
    The Chairman. If they are unsolicited?
    Ms. Millender-McDonald. If they are unsolicited or 
solicited.
    The Chairman. Oh, no. The current rules of the House: If 
they are solicited and someone mails me 800 pieces----
    Ms. Millender-McDonald. Then I can see that being House 
resources expended.
    The Chairman. We do that as the current law. They send it 
back.
    Ms. Millender-McDonald. But what if----
    The Chairman. If they are unsolicited, there is a blackout 
that you just can't start mailing newsletters to people that 
didn't ask you for the newsletters. You can't do that during 
the blackout period because that is unsolicited.
    Mr. Larson. Will the gentlelady yield?
    Ms. Millender-McDonald. Yes, please.
    Mr. Larson. At the heart of this--and certainly I concur 
with Mr. Ehlers in terms of getting information to people that 
are seeking information and following a specific issue all 
along. That makes all the sense in the world to me. Here is 
where the abuse comes, and it gets back to solicitation.
    Throughout the course of a year or 2-year period, you go 
out to town hall meetings and whatever and people say, yes, if 
you want to contact me, sign up for my Web site, et cetera. 
Over the course of a 2-year period you accumulate a number of 
people who request an e-mail to you. So let us say that one is 
able to accumulate 10, 15, 20,000 e-mail addresses, and they 
need--and all of a sudden they get a response from you 2 days, 
a week, 10 days before an election period updating them on all 
you have done in your district and, oh, by the way, also 
telling them about that issue that they initially signed on or 
signed up for to receive your e-mail.
    That is where the potential for the abuse lies. That is 
where, all of a sudden, aside from the information that you are 
distributing on a regular basis which in the proposal is 
categorized as an e-mail update, but the abuse comes not from 
Vern Ehlers, not from John Linder, not from Mr. Doolittle, but 
it comes from an overzealous staff person, someone saying, hey, 
look, we have this opportunity. There is no foreboding reason 
why we can't send out all of this information to our 
constituents that have signed up legitimately. They signed up 
for this proposal. And, to us, that seems like an unfair 
advantage, given the adherence to the 90-day blackout and lack 
of public disclosure and no bipartisan review.
    Ms. Millender-McDonald. I will reclaim my time only tosay 
those are my sentiments exactly, Mr. Chairman; and for that reason I 
just cannot accept the proposal.
    The Chairman. Thank the gentlelady.
    Mr. Linder.
    Mr. Linder. I had a lot to say a little while ago, but this 
seems to be deteriorating so bad it is hardly worth talking 
about. Only back to what Vern said, and that is, you don't 
write the rules to punish everybody because of some bad actors.
    I ran in a race a year ago last month, the election was, 
when my opponent broke every one of the current rules: moving 
e-mails that accumulated on his official site to his campaign, 
sending unsolicited 499 letters to people in neighboring 
counties he never represented to names he got off of Chamber of 
Commerce lists.
    We need to think about making rules that can be used during 
the course of the changing technology that we know the bad 
actors are going to abuse. They are going to abuse it. They 
abuse the current one right now. And it is easier to catch 
them, because it is so easy to get on their mailing list, and 
you can raise it as an issue. But you can't stop people from 
being bad actors. So I would like to see us move on.
    Thank you.
    Mr. Larson. If the gentleman would yield.
    By what standard, though, are we measuring this? I agree 
with what you are saying, but the only way that you can measure 
an abuse is if you have a standard, and our objection in 
principle is lack of a standard here. I know this is a new 
technology, but, frankly, all it is is another mode of 
transmitting a message.
    Mr. Linder. Which is nothing different than, frankly, the 
unsolicited fliers some people send out. If people are used to 
getting an update from you about what is getting on, it is just 
absolutely silly to stop them from getting it in the last 90 
days. Now, if you want to abuse it, some people will. That 
works right now. They will abuse it. Some people hire people 
for their campaign and keep them for their official staff. That 
happens all the time. But it is a changing time.
    I got three e-mails one day from a fellow who e-mailed me 
at 10:00 in the morning. We get thousands a week. He e-mailed 
me at 10:00 in the morning and then e-mailed me at 2:00 and 
then at 4:00 complaining because I hadn't answered either of 
his other e-mails. You just can't keep up with it. It is a 
changing time.
    I think 9 years of sit back and taking a look at it should 
give us an opportunity to make some changes; and if the changes 
are abused, we will look at it again.
    Mr. Ehlers. Will the gentleman yield?
    Mr. Linder. Of course.
    Mr. Ehlers.I just also wanted to comment that the 
requirement is that every e-mail have a statement at the end: 
If you do not wish to receive these, just return this e-mail 
with ``unsubscribe'' in the subject matter, and you are off the 
list automatically. I mean, the list server is operated by HIR, 
not by each individual office. And it is an automatic thing. If 
someone doesn't want to get it, they just return it. Boom, they 
are off the list just like that.
    Mr. Larson. But why should e-mail be treated any 
differently than all the other forms of communication?
    Mr. Linder. First of all, it is terribly inexpensive.
    Mr. Larson. Agreed.
    Mr. Linder. It is terribly efficient. And because of the 
way it is done, you get a lot of the fluff out of the piece. It 
is a very convenient and sparse way to communicate.
    Ms. Millender-McDonald. Will the gentleman yield for a 
minute?
    Mr. Linder. Sure.
    Ms. Millender-McDonald. But when you don't have access to 
the e-mail and, you know, you still want to communicate with 
your constituents----
    Mr. Linder. Sure. And you have town hall meetings and--this 
strikes me as the notion that we could cut downall of the tall 
trees in the forest so they would be no taller than the short ones. We 
don't punish the people who are succeeding because some people aren't. 
And you make an effort, like Vern said, for them to get access to 
computers. But this is not a way for which----
    Ms. Millender-McDonald. But, Sir----
    Mr. Linder. We should-reclaiming my time. Reclaiming my 
time. This whole issue is about rules for communication, not 
how many computers are in the world or who should be buying 
them.
    I yield back.
    The Chairman. The gentleman yields back his time.
    Mr. Brady.
    Mr. Brady. Yes. Thank you, Mr. Chairman.
    I feel very out of character responding on this issue. 
Being here for 4 or 5 or 6 years now, I have acquired a sense 
of fairness. But I am a party chairman, and I do see all the 
problems that this could cause.
    My office--my congressional office will wind up being a 
campaign office for any other candidate that wants to run and 
can use anybody that has clicked on--which is solicited, by the 
way, because we put the click on there and we send it out. They 
click on. We are soliciting them to click back to us, and then 
they get their e-mail. And they can use that office, my office, 
for any other office that they are running for, including 
another congressional office that is not in my district.
    And I differ with a few issues here, is that the difference 
between what we are talking about now and our opponents--as you 
said, you had an opponent--he paid for it. We are having our 
taxpayers pay for it now.
    Mr. Linder. That is incorrect. My opponent was an 
incumbent, and the Federal Government paid for it.
    Mr. Brady. Well, then that may have been wrong, and we 
should have done something about that. But the problem about 
the abuses also is that, after the abuses happen, they are 
gone. Or you could be elected after abusing this here. What do 
you do with an elected official then? You have got to bring him 
in front and he is gone. It doesn't happen. You know, you lost 
it already, so you can't punish. But if they abuse the power 
that you have here, then that becomes a problem. Maybe they did 
what you are talking about. Your opponent did what you are 
talking about. We are going to allow them to do right now 
legally. We will allow the candidates to do that. I mean, we 
should be a little bit about fairness here.
    And, you know, and as the gentleman said about C-SPAN, if 
you have an opponent that may not be an incumbent is looking 
upon C-SPAN quotes and they use and we can't, we can use them. 
We can use it out of our campaign. We just can't use it--the 
difference is we just can't use it out of taxpayers' money. 
Just like an opponent that is a non-incumbent has to use their 
campaign money. I just think that it is a terrible thing to 
have when you can use it for a get-out-to-vote on election day, 
and I think that it is a major unfairness on people that are 
not incumbents.
    I again, like I say, feel out of character speaking as a 
party chairman, but it is what I feel.
    The Chairman. Any further comments?
    Mr. Doolittle. Yes, Mr. Chairman.
    The Chairman. Mr. Doolittle.
    Mr. Doolittle. Well, I really don't think that is accurate, 
Mr. Brady, because you can't use it for get-out-the-vote on 
election day, because e-mails are still required to comply with 
franking regulations. So if you have sent out e-mails saying 
vote for me or it is really important that you all turn out to 
vote for our party or something, that would be a clear 
violation of existing franking standards. So I just feel like 
that is an extraneous issue that is not relevant to this 
particular proposal here.
    I understand Ms. Millender-McDonald's concern. I don't 
agree with it, but I think I understand where she is coming 
from in terms of feeling her district or districts like that 
may be disadvantaged because there aren't as many computersI 
guess is Mr. Larson's point, too. But, nevertheless, that would perhaps 
affect everybody equally, whether they are Republicans or Democrats in 
the districts.
    It seems to me, if I understand how this is supposed to 
work, can't you now when you send out regular mailings--not e-
mails but regular mailings--have in there a box that people 
check if you want to receive updates? And if those boxes are 
checked and you get that list of names, those then become 
solicited communications and you can communicate right up to 
the day before election day now, regardless of the number, 
without having an advisory opinion from the franking 
commission. Is that not correct, Mr. Chairman?
    The Chairman. Right.
    Mr. Doolittle. So all your proposal----
    Mr. Larson. Will the gentleman yield?
    Mr. Doolittle. Yes.
    Mr. Larson. But who is soliciting? Is the Member then who 
is soliciting the constituent, or is it the constituent that is 
actually soliciting the Member?
    Mr. Doolittle. Well, isn't it the same--go ahead.
    Mr. Larson. If I am sending a letter out to somebody and 
asking them if they wanted to sign up for my Web page or sign 
up to receive information from me, aren't I soliciting the 
constituent? Now, they may have to check it off, but haven't I 
been the one who initiated the solicitation?
    Mr. Doolittle. You have been. But once they have checked it 
off, then the burden shifts and all of a sudden they become the 
requester. That is how the rules operate, as I understand it.
    Mr. Larson. That is correct, but that is our point. My 
point is that if you are able to accumulate through the 
solicitation process, whether it is through a town hall--you 
have a public hearing, a town hall meeting. Postcards are 
passed out. People say, yes, I want to learn more about Mr. 
Linder and Mr. Doolittle's proposals on whatever. Then you 
accumulate those, and you have the ability circumventing a 90-
day blackout, to days before an election send them en masse 
information about yourself, about you candidacy--not get out to 
vote necessarily, but about all you have done on behalf of 
veterans, about all you have done. You know, a reminder, 
however, within the letter of the law, clearly from our 
perspective a violation of the spirit of the law and the 
purpose behind the 90-day blackout, which was to level the 
playing field, so to speak, over the advantage that 
incumbents--normally are different from Mr. Ehlers and I 
believe Mr. Linder and yourself--have been addressing in terms 
of the normal business contact. How absurd that, if I am giving 
a person regular updates on an issue that is important to them, 
that all of a sudden, because of this 90-day period, I can no 
longer do that.
    So, it is--from our perspective, I think that we have to 
come up with a better way to establish a standard by which we 
are going to hold during these election periods so that we 
prevent abuse. And I completely agree with not wanting to harm 
the good guys or do something in an obstrusive manner that 
prevents the flow of information and enlightenment for our 
constituents, but, by the same token, as I said earlier, 
sometimes we have to save ourselves from ourselves.
    Mr. Doolittle. Well, in response to that I would say, if 
you are objecting to the idea that by accumulating lists you 
can then circumvent the blackout period, well, yes, you can, 
and you can circumvent it now through regular mail. And there 
is nothing sacrosanct about this blackout period, in my mind, 
by the way. I mean, the standard is what it is. It was once 
nothing, now it is 60 days, and--I mean, it was then 60 days 
and now it is 90 days. But you can clearly under the present 
rules, no dispute, send however many thousands of letters you 
have accumulated to the thousands of names that have requested 
these updates. You can do that through the mail now. So I don't 
see that applying this policy to e-mail is violating some 
principle. It is perfectly consistent with what we do on 
regular mail.
    Mr. Larson. I don't believe that that is correct. I believe 
that is only if they have solicited you through the mail 
individually.
    Mr. Doolittle. But they solicited you on the e-mails.
    Mr. Larson. Well, I would argue that that is not 
necessarily the case. I would argue that you have solicited 
them.
    Mr. Doolittle. Well, you have solicited them when you send 
out a regular mail and you say, if you would like updates, 
check this box when you mail this form back in. There is no 
point in--you know, you have your point of view, I guess I have 
mine. But it seems to me----
    Mr. Larson. But this legislation explicitly says we are 
circumventing the 90-days blackout.
    Mr. Doolittle. Now, see, that to me is muddying the waters. 
That is not circumventing anything. You are simply saying that 
an e-mail that is solicited is to be treated like a regular 
piece of mail that is solicited. It does not--the 90-day ban 
does not apply.
    Mr. Millender-McDonald. Would the gentleman yield? It 
certainly seems like you are circumventing the 90-day rule.
    Mr. Chairman. The time has expired. With that, are there 
amendments?
    Mr. Larson. We have prepared amendments to address every 
one of these principled issues that we have raised, and we 
raise these issues because we feel that there is the need for a 
dialogue and further discussion. We don't disagree with the 
concept of informing constituents on a regular basis. What we 
are concerned about is the potential for abuse. We don't want 
to prevent people from getting information. We want to try to 
do everything within our power to prevent abuse.
    We want and desire public disclosure on these issues so 
that there is yet still even greater confidence in the 
electoral process, rather than creating, however well-intended, 
the impression that there is not. So that is the principal 
objection that we have. And it is my understanding that--and if 
the leader could clarify this--that the majority is not going 
to accept our amendments. I would defer to my colleagues for 
further comment, but it is not our desire to drag out this 
meeting. It is pretty clear that our objections are. I see no 
reason to bring forward four specific amendments and have those 
amendments voted on one by one, but I would like on final 
passage a roll call vote on the bill itself.
    Mr. Chairman. Just to clarify. And I appreciate the 
minority has given us the amendments--they gave us the 
amendments in plenty of time to review them. I appreciate that. 
We did review them. I would be candid in saying an assessment 
after reviewing each of the amendments that, from our point of 
view, they would gut the intent. Because, again, these are 
solicited e-mails the same as solicited mail and, therefore, 
frankly, the votes wouldn't be there to pass them. But I do 
appreciate you giving them to us, And we did review them. I 
don't want to say we didn't, because we did look at them 
thoroughly. But as far as our side, we wouldn't be able to--we 
could accept discussing them and accept a vote on them, but we 
wouldn't be providing the votes to pass them.
    Ms. Millender-McDonald. Mr. Chairman, I have a question.
    Mr. Chairman. The gentlelady.
    Ms. Millender-McDonald. When you define solicited mail, how 
do you define that? Is it within a certain time zone that this 
is solicitation, inquiry about certain positions that you have 
taken? Or is this for the entire cadre of e-mails that you have 
perhaps not so much had solicitation but you initiated 
solicitation of the e-mails that further expands this whole 
field of e-mails that you can respond to?
    The Chairman. Solicited would be information requested by 
an individual to our offices.
    I think probably--and when I first looked at this well over 
a year ago, when--we discussed this, actually, when Mr. Hoyer 
was the ranking member and we had staff discussions, the 
questions about the Web sites, too. You know, is that a 
solicitation because you have a Web site there that says click 
on this icon and you can get posted up on it? And then there is 
another one that says unclick this and we will unsubscribe you. 
And I don't think the fact of having--my personal opinion, the 
fact of having a Web site means that you are soliciting, 
because you are not, you know, mailing that Web site in to 
everybody and saying, ``Here is my icon. Why don't you go in 
and click it?''
    The Chairman. But the Web sites, as I understand it on 
these, contain an icon that says, I would like to subscribe to 
future information, or they can unsubscribe.
    But solicited mailing is when a constituent makes a 
request, asks for information, or to be put on a newsletter.
    Ms. Millender-McDonald. All right. So then if that be the 
case, do we have a time line by which that solicitation will be 
done, within this 90 days, or do we do this and then just 
spread it out to all of the e-mail folks to give them the 
opportunity of what your latest position is on issues?
    Mr. Ehlers. If the gentlelady will yield. I would have to 
do more research to be positive of this, but I believe that--
leave e-mail out of it. If someone writes you a letter and asks 
for some information, that is a solicitation for information. I 
don't believe there is any time line.
    For example, if I get 5,000 postcards asking me to stop the 
pollution flowing in to the Great Lakes, and I happen to be 
very active on the Great Lakes, I think it is perfectly 
reasonable for me to send them a mailing any time I am in 
office responding, giving them updates on what is happening in 
the Congress about pollution flowing into the Great lakes. 
There is not time line.
    Ms. Millender-McDonald. But, see, abuse can come when one 
then says, I really should have this type of response to all of 
those e-mail folks to let them know my position on this.
    Mr. Ehlers. But then that would be--the same situation, 
whether it is e-mail or regular mail.
    Ms. Millender-McDonald. It would be an abuse?
    Mr. Ehlers. No. It is permitted. It is a solicited 
response, whether it is e-mail or regular mail. There is no 
difference.
    Ms. Millender-McDonald. But even those who have not 
solicited that information, and you feel compelled to just 
respond to all of your e-mails.
    Mr. Ehlers. You asked about solicited, whether there is a 
time line. I am saying there is no time restriction that I am 
aware of on solicited regular mail or solicited e-mail. And I 
just--you know, I can understand your concerns. And I think we 
probably need further conversations on this.
    But I would encourage us to adopt this proposal. If abuses 
occur, and I suspect they will--but I suspect that they will 
appear in ways that we haven't imagined, because, as Mr. Linder 
has pointed out, people can be very resourceful in abusing the 
regulations, the laws and so forth, and we simply address these 
as they come up, because I--you have to recognize, first of 
all, this is not going to be unsupervised. You are still 
required to meet the franking standards with these--with your 
e-mail newsletters. That is a requirement. It is easily, very 
easily, supervised, because all you have to do, if you wanted 
to watch me, is simply go to my Web site and click on the 
newsletter list, and you get my newsletters, and you can 
examine them. And since we don't even handle the lists in our 
own offices, we wouldn't know whether someone who would be 
inspecting them is getting them.
    It is going to be self-policing to a great extent. I think 
this would be wonderful campaign fodder. If someone does abuse 
the system 3 days before an election, the opponent can hold a 
press conference, say, look, they are abusing the power of 
their office. They have sent out this e-mail which is illegal 
under House franking standards.
    So I think much of the abuses you have anticipated would be 
stopped that way. I worry about the ones that we haven't 
anticipated. We are going to have to address those as time goes 
on.
    The Chairman. Mr. Mica.
    Mr. Mica. Well, Mr. Chairman, I think this has been a good 
discussion. And I think, though, that it is appropriate at this 
time, and I move that the committee resolution modifying the 
unsolicited mass communications policy be adopted.
    The Chairman. The question is on the motion. Those in favor 
of the motion will say aye.
    Those opposed will say no.
    Mr. Larson. Mr. Chairman, I ask for a recorded vote. And, 
Mr. Chairman, if I might, and I thank you, we remain very 
concerned about the potential for abuse within this process. 
And especially given the spotlight that our election process 
has come under in recent years, I think we should go to 
extraordinary lengths as Members of Congress to try to prevent 
abuse.
    Under this amendment proposed by Majority, mass 
communications to be distributed via e-mail to a mailing list 
compiled by a Member, by soliciting of a constituent to request 
that the Member send him or her e-mail updates would no longer 
be considered unsolicited mass communications; no longer be 
required to receive an advisory opinion from the Franking 
Commission, thus eliminating the bipartisan review of 
communication to determine whether or not the content is in 
compliance with applicable statute, rule or regulation; no 
longer be subject to public disclosure; and no longer be 
prohibited during the 90-day period preceding an election in 
which a Member's name appears on the ballot for any public 
office.
    We have prepared amendments. This discussion is clear. You 
understand our principled objections. We just want these to be 
on the record for our concern about this. And we will pursue in 
earnest--and I agree with Mr. Ehlers that there are perhaps 
things here, too, that we haven't even anticipated. That is why 
we feel strongly and principled that we should oppose this and 
do everything within our power as a body to try to prevent 
abuse during the election process.
    The Chairman. Before we call the roll, I just want to say 
that I appreciate your sincerity on the issue. I disagree in 
the sense that these are solicited, but I do appreciate your 
sincerity on the issue. It has been a good discussion.
    And with that, the clerk will call the roll.
    The Clerk. Mr. Ehlers.
    Mr. Ehlers. Yes.
    The Clerk. Mr. Mica.
    Mr. Mica. Aye.
    The Clerk. Mr. Linder.
    Mr. Linder. Aye.
    The Clerk. Mr. Doolittle.
    Mr. Doolittle. Aye.
    The Clerk. Mr. Reynolds.
    Mr. Reynolds.
    [No response.]
    The Clerk. Mr. Larson.
    Mr. Larson. No.
    The Clerk. Ms. Millender-McDonald.
    Ms. Millender-McDonald. No.
    The Clerk. Mr. Brady.
    Mr. Brady. No.
    The Clerk. Mr. Chairman.
    The Chairman. Yes.
    Five yeas, three nays. The motion is agreed to, and the 
committee resolution modifying the unsolicited mass 
communication policy is adopted.
    I would ask unanimous consent that Members have 7 
legislative days for statements and materials to be entered in 
the appropriate place in the record. Without objection, the 
material will be entered.
    I also ask unanimous consent that staff be authorized to 
make technical and confirming changes on all matters concerned 
by the committee at today's meeting. Without objection, so 
ordered.
    Having completed our business for today, the committee is 
adjourned.
    [Whereupon, at 11:40 a.m., the committee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T9894A.001
    
    [GRAPHIC] [TIFF OMITTED] T9894A.002
    
    [GRAPHIC] [TIFF OMITTED] T9894A.003
    
    [GRAPHIC] [TIFF OMITTED] T9894A.004
    

</pre></body></html>
